CERTIFICATE OF SERVICE
NO. TBD
Loring Edwin Justice
Petitioner
v.
Board of Professional Responsibility of the Supreme Court of Tennessee,
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LORING
EDWIN JUSTICE PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Gerald Morgan
Board of Professional Responsibility of the Supreme Court of Tennessee
10 Cadillac Drive, Suite 220
Brentwood, TN 37027
(615) 915-5123
jmorgan@tbpr.org
Counsel for Respondent

Dan Abramovich
December 18, 2019
SCP Tracking: GuerreroJustice-200 Prosperity Place-Cover White

